APPENDICES

1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit

Park Properties Associates, L.P.,
Valentine Properties Associates, L.P.,
Plaintiffs-Cross-Appellants,
v.
United States,
Defendant-Appellant.
Nos. 2017-2279, 2017-2344
Decided: February 19, 2019
Before Stoll, Mayer, and Schall, Circuit Judges.
OPINION

Stoll, Circuit Judge:
The government appeals the United States Court
of Federal Claims’s denial of its motion to dismiss and
grant of summary judgment in favor of landlordplaintiffs Park Properties Associates, L.P. and Valentine Properties Associates, L.P. 1 Landlord-plaintiffs
cross-appeal the trial court’s denial of vacancy damages. We reverse the trial court’s denial of the government’s motion to dismiss. Accordingly, we vacate the
trial court’s grant of summary judgment regarding liability and damages, and remand for proceedings consistent with this opinion. 2
Park Props. Assocs., L.P. v. United States, 128 Fed. Cl. 493
(2016).

1

Landlord-plaintiffs move to strike portions of the government’s
reply brief as nonconforming for allegedly raising the new issue of
an “implied-in-law” contract. Mot. of Pls.-Cross-Appellants to
2

2a
BACKGROUND

This appeal concerns jurisdiction over a contract
dispute. The United States Department of Housing and
Urban Development (“HUD”) administers the projectbased Section 8 housing program using Housing Assistance Payments (“HAP”) renewal contracts. Park and
Valentine own publicly assisted housing in Yonkers,
New York. They allege that the government breached
the renewal contracts, resulting in money damages.
The trial court determined that it had jurisdiction,
found the government liable for breach of contract, and
awarded $7.9 million in total damages to Park and
Valentine.
We focus on jurisdiction, the threshold issue. The
parties agree that the trial court has jurisdiction only if
the parties were in privity of contract. The salient facts
regarding jurisdiction are as follows. The contracts at
issue were executed in a two-tiered system. First, the
government, through HUD, contracted with a public
housing agency (“PHA”) (here, the New York State
Housing Trust Fund Corporation (“NYSHTFC”)). Second, the PHA contracted with the private owners of
rental housing (here, landlord-plaintiffs). Neither contract explicitly named both the government and the
landlord-plaintiffs as directly contracting parties, but
the trial court held that the renewal contracts created
privity between them.
Section 1 of each renewal contract specifically identified the parties. For example, the Park renewal conStrike Appellant’s Nonconforming Reply Br. 4, ECF No. 51 (particularly citing Reply and Resp. Br. of Def.-Appellant United
States, ECF No. 39 at 7, 14–16, 23–24). Because we do not reach
the trial court’s reformation of the renewed contracts below, we
deny the motion to strike as moot.

3a
tract specifically identified the two parties as
NYSHTFC and Park:
1 CONTRACT INFORMATION
...
PARTIES TO RENEWAL CONTRACT
Name of Contract Administrator
New York State Housing Trust Fund Corporation
...
Name of Owner
Park Properties Associates, LP
J.A. 41–42 (footnotes omitted). Notably, Section 1 did
not identify the government or HUD as a party to the
contract.
Section 4(a)(1) of each Park and Valentine renewal
contract reiterated that the contract was between the
Contract Administrator and the Owner of the Project—
as identified in Section 1, discussed above. However,
Section 4(a)(2) further specified that, if HUD was the
Contract Administrator, HUD would remain a party to
the renewal contract even if HUD assigned the renewal
contract to a PHA:
4 RENEWAL CONTRACT
a Parties
(1) The Renewal Contract is a housing assistance payments contract (“HAP Contract”)
between the Contract Administrator and the
Owner of the Project (see section 1).
(2) If HUD is the Contract Administrator,
HUD may assign the Renewal Contract to a
public housing agency (“PHA”) for the purpose
of PHA administration of the Renewal Contract, as Contract Administrator, in accordance

4a
with the Renewal Contract (during the term of
the annual contributions contract (“ACC”) between HUD and the PHA). Notwithstanding
such assignment, HUD shall remain a party to
the provisions of the Renewal Contract that
specify HUD’s role pursuant to the Renewal
Contract, including such provisions of section 9
(HUD requirements), section 10 (statutory
changes during term) and section 11 (PHA default), of the Renewal Contract.
J.A. 44. Furthermore, Section 11 of each contract laid
out conditions that would apply if the Contract Administrator was a PHA that defaulted, in which case HUD
would be able to take action under the terms of the
contract:
11 PHA DEFAULT
a This section 11 of the Renewal Contract
applies if the Contract Administrator is a PHA
acting as Contract Administrator pursuant to
an annual contributions contract (“ACC”) between the PHA and HUD. This includes a case
where HUD has assigned the Renewal Contract to a PHA Contract Administrator, for the
purpose of PHA administration of the Renewal
Contract.
b If HUD determines that the PHA has
committed a material and substantial breach
of the PHA’s obligation, as Contract Administrator, to make housing assistance payments to
the Owner in accordance with the provisions of
the Renewal Contract, and that the Owner is
not in default of its obligations under the Renewal Contract, HUD shall take any action
HUD determines necessary for the continuation of housing assistance payments to the

5a
Owner in accordance with the Renewal Contract.
J.A. 47. HUD also signed each renewal contract, even
though it was not named as a party in Section 1. For
example, the signature page of the June 2009 Park renewal contract includes the signature of an authorized
HUD representative, as shown below:

6a
J.A. 49.
After considering the above, the trial court found
that the terms of the contract created privity between
the land-lord-plaintiffs and HUD:
The terms of the contract create privity between the owners and HUD. Section 4(a)(2) of
the contract provides that HUD is party to
provisions of the renewal contract. One of
these provisions is in [Section] 11, in which
HUD agrees to correct any default if the Public
Housing Agency (“PHA”) breaches the contract,
as well as agrees to continue assistance payments to the owners. Furthermore, although
the NYSHTFC is listed as the Contract Administrator, HUD is a signatory to this contract.
Park Props., 128 Fed. Cl. at 497 (citations omitted).
Next, the trial court found the government liable for
breach of contract and awarded rent underpayment
damages to Park and Valentine. Id. at 498–99. The
government appeals those determinations. In calculating damages, the trial court denied Park and Valentine’s request for vacancy damages, see Park Props. Assocs., L.P. v. United States, 2017 WL 1718751, at *3
(Fed. Cl. May 2, 2017), and Park and Valentine crossappeal. We have jurisdiction pursuant to 28 U.S.C.
§ 1295(a)(3).
DISCUSSION
I

We review a trial court’s determination of its subject matter jurisdiction de novo. See Abbas v. United
States, 842 F.3d 1371, 1375 (Fed. Cir. 2016); see also Litecubes, LLC v. N. Light Prods., Inc., 523 F.3d
1353, 1360 (Fed. Cir. 2008). Plaintiff bears the burden
of establishing jurisdiction by a preponderance of the
evidence. See McNutt v. Gen. Motors Acceptance Corp.,

7a
298 U.S. 178, 189 (1936). Under the Tucker Act, the
Court of Federal Claims has jurisdiction only if there is
privity of contract between plaintiffs and the government. See Cienega Gardens v. United States, 194 F.3d
1231, 1239 (Fed. Cir. 1998). Whether a contract exists
is a mixed question of law and fact. See Ransom v.
United States, 900 F.2d 242, 244 (Fed. Cir. 1990). We
review jurisdictional findings of fact for clear error. See Banks v. United States, 314 F.3d 1304, 1308
(Fed. Cir. 2003). “A finding is ‘clearly erroneous’ when
although there is evidence to support it, the reviewing
court on the entire evidence is left with the definite
and firm conviction that a mistake has been committed.” United States v. U.S. Gypsum Co., 333 U.S. 364,
395 (1948).
Where the government contracts indirectly with a
plaintiff, our predecessor court and our court have held
that there is generally no privity. In D. R. Smalley, for
example, the United States Court of Claims held that
there was no express privity of contract because there
was no express contract between the Federal Government and the contractor. D. R. Smalley & Sons, Inc. v.
United States, 372 F.2d 505, 508 (Ct. Cl. 1967). Furthermore, the court held that there was no implied
privity because the acts and omissions of the State of
Ohio did not impose liability on the federal government. Instead, the contracts were between the State of
Ohio and the contractor. Id. Thus, the court concluded,
there was no express or implied privity of contract, and
therefore the federal government was not liable in contract for the claimed damages. Id.
In Housing Corp., the Court of Claims applied
the D. R. Smalley doctrine to privity issues involving
government contracts under the United States Housing

8a
Act of 1937. 3 Hous. Corp. of Am. v. United States, 468
F.2d 922, 923–24 (Ct. Cl. 1972). There, the court considered a contract of sale between the plaintiff and a
local authority. Plaintiff entered into the contract of
sale with the local authority for the development, construction, and sale of the project. Id. at 923. Though
the government was not expressly a party to the contract, it was significantly involved in the project. For
example, the government approved the contract between the local authority and plaintiff, approved drawings, plans, and specifications, and made direct demands on the plaintiff for contract changes and agreed
to pay for them. Id. at 923, 925. Plaintiff sued the government for unpaid costs resulting from those changes.
In response, the government argued that the court
lacked jurisdiction because the government was not in
privity of contract and had not waived sovereign immunity.
The court determined that the government was not
a party to the contract. Instead, the government obligated itself by separate agreements to local authorities
for the funding of approved projects. Ultimately, the
court held that this did not create an express or implied contract between plaintiff and the government,
nor did it make the local authority the government’s
agent through HUD. Instead, HUD’s actions were performed in the government’s capacity as a sovereign.
Thus, the Court of Claims determined that the government’s actions were sovereign acts that did not subject the government to liability.
The Court of Claims later applied the same logic
in Aetna. Aetna Cas. and Sur. v. United States, 655
F.2d 1047 (Ct. Cl. 1981). There, a construction compa3

The predecessor to the United States Housing Act of 1974.

9a
ny and its surety sued the government for alleged losses in completing a federally insured housing project. Id. at 1049. The parties executed separate agreements between the construction company, the private
corporation created to own the resulting low-income
housing, and the government. Id. at 1050. There was
no written contract directly between the plaintiffs and
the government. Nevertheless, HUD was “intimately
involved with all details of the project from its inception,” including drafting all relevant documents, approving all mortgage advances, and requiring all work
to be of a certain quality. Id. at 1050, 1052. According
to plaintiffs, the private corporation created to own the
resulting low-income housing was a creature of HUD.
Plaintiffs further argued that HUD provided all financing, drafted all contracts, and conceived, implemented,
and supervised the project. The court nonetheless determined that this was not sufficient to establish privity between plaintiffs and the government. The court
held that where the United States does not make itself
a party to the contracts that implement important national policies, no express or implied contracts result
between the United States and those who perform the
work. Id. at 1052–53 (first citing D. R. Smalley, 372
F.2d at 508; then citing Hous. Corp. of Am., 468 F.2d at
924). Accordingly, the court concluded that there was
no privity of contract, express or implied.
Our court followed a similar line of analysis in
Katz. Katz v. Cisneros, 16 F.3d 1204, 1207 (Fed. Cir.
1994). Like this case, Katz concerned a Section 8 program under the Housing Act of 1937. HUD administered the program by contracting with local PHAs,
which in turn contracted with a private developer.
HUD approved of one such contract between Housing
Allowance and Hollywood Associates (a private developer). Following an audit, HUD ordered Housing Al-

10a
lowance to reduce contract rents paid to Hollywood Associates, concluding that they were too high. The court
acknowledged that, to succeed in its subsequent suit
against HUD, Hollywood Associates had to show that
the district court had subject matter jurisdiction and
that HUD waived its sovereign immunity to be
sued. Id. We noted that there was no contract between
Hollywood Associates and HUD; rather, the contract
was between Housing Allowance and Hollywood Associates. We further reasoned that HUD’s grant of benefits and subsequent oversight was insufficient to create
a contractual obligation between Hollywood Associates
and the government. Thus, the court concluded, there
was no privity.
In National Leased Housing Ass’n, we similarly
held that Section 8 landlords who entered into HAP
contracts with PHAs instead of directly with HUD
were not in privity of contract with the United
States. Nat’l Leased Hous. Ass’n v. United States, 105
F.3d 1423, 1435–37 (Fed. Cir. 1997) (citing Katz, 16
F.3d at 1210). To show privity, we held that a party
must establish that: (1) the prime contractor was acting as a purchasing agent for the government; (2) the
agency relationship between the prime contractor and
the government was established by clear contractual
consent; and (3) the contract stated that the government would be directly liable to the vendors for the
purchase price. Id. at 1436. After considering the facts
and contracts at issue, we held that the third element
was not satisfied. The contract had the following provision: “HUD shall assume the [PHA’s] rights and obligations under the [ACC] and/or [HAP] Contract ....” Id.
The appellants, in making their argument, omitted the
rest of the provision, which allowed HUD to assume
rights and obligations only in a particular circumstance: “HUD may, if it determines the [PHA] is in de-

11a
fault, assume the [PHA’s] rights and obligations ....” Id.
We held that this was not the kind of direct, unavoidable contractual liability that establishes privity and
thereby waives sovereign immunity.
In D. R. Smalley, Housing Corp., Aetna, Katz, and
National Leased Housing Ass’n, our court and our predecessor court consistently held that plaintiffs that had
not directly contracted with the government for housing projects did not have privity. In each case, the court
carefully reviewed the government’s liability imposed
by the text of the contract and the relationship between the parties, but nonetheless determined that
there was no privity of contract.
Based on these cases, we are compelled to conclude
that there is likewise no privity here. Section 1 of each
contract clearly identifies the parties as the “Contract
Administrator” and “Owner” of each project. The contracts name the parties in Section 4a: “The Renewal
Contract is a [HAP contract] between the Contract
Administrator and the Owner of the Project (see section 1).” J.A. 44 (Park); J.A. 89 (Valentine). Here, every
contract identifies the Contract Administrator as the
NYSHTFC and the Owners as either Park or Valentine. And, the instructions for listing the “Name of
Contract Administrator” appear at footnote 4 of the
contract: “Enter the name of the Contract Administrator that executes the Renewal Contract. If HUD is the
Contract Administrator, enter [HUD]. If the Contract
Administrator is a [PHA], enter the full legal name of
the PHA.” J.A. 51 n.4. HUD is not listed in that field,
and therefore it is not the Contract Administrator. We
also conclude that the Contract Administrator is a
PHA: NYSHTFC. In Katz, we held on similar facts—
where HUD contracted with a PHA who in turn contracted with an Owner with HUD’s approval—that the

12a
plaintiff did not have privity of contract. Katz, 16 F.3d
at 1206, 1210. That same conclusion applies here.
II

The trial court’s decision in this case conflicts with
our precedent. The trial court and landlord-plaintiffs
provide four reasons for rejecting the government’s jurisdiction argument. We address each argument in
turn.
First, the trial court held and landlord-plaintiffs
argue that the statute authorized only HUD to execute
the renewal contracts. The statute reads:
The Secretary is authorized to enter into annual contributions contracts with [PHAs] pursuant to which such [PHAs] may enter into
contracts to make assistance payments to owners of existing dwelling units in accordance
with this section. In areas where no [PHA] has
been organized or where the Secretary determines that a [PHA] is unable to implement the
provisions of this section, the Secretary is authorized to enter into such contracts and to
perform the other functions assigned to a
[PHA] by this section.
42 U.S.C. § 1437f(b)(1). Contrary to the trial court and
plaintiffs’ assertion, the statute does not restrict authority to execute the renewal contracts to HUD. Instead, the statute simply provides that the Secretary is
authorized to enter such contracts. It does not limit
that authorization to the Secretary or HUD.
Second, the trial court reasoned and landlordplaintiffs argue that NYSHTFC is a mere contract administrator, not a PHA, because NYSHTFC did not initiate, negotiate, or administer the renewal contracts.
See Park Props., 128 Fed. Cl. at 497; Cross-Appellants’
Br. 29 n.7, ECF No. 36. We disagree because the con-

13a
tracts clearly state that NYSHTFC is the PHA and
that NYSHTFC and the plaintiffs are the only parties
to the contract. We also disagree because there is nothing in the statute that supports the trial court’s conclusion that “the PHA must initiate, contract, and administer the contract” to avoid privity. Park Props., 128
Fed. Cl. at 497. Instead, the statute allows HUD to
provide assistance through annual contributions contracts with PHAs in accordance with the terms of the
statute. See 42 U.S.C. § 1437f(b)(1). Nor is there any
dispute that NYSHTFC fits HUD’s definition of
PHA. 24 C.F.R. § 5.100 (defining PHA to mean “any
State, county, municipality, or other governmental entity or public body, or agency or instrumentality of
these entities, that is authorized to engage or assist in
the development or operation of low-income housing
under the 1937 Act”). We decline to read additional requirements into the statute’s plain language.
Third, the trial court and landlord-plaintiffs argue
that regulations implementing the Multifamily Assisted Housing Reform and Affordability Act of 1997
(“MAHRA”) require that HUD be the party that renews
the contract. Specifically, they point to 24 C.F.R.
§ 402.5(a), which reads in relevant part:
Contract renewals under section 524(b) or (e)
of MAHRA.
(a) Renewal of projects eligible for exception
rents at owner’s request. HUD will offer to renew project-based assistance for a project eligible for exception rents under section 524(b) of
MAHRA at rent levels determined under this
section ... but the owner of a project other than
a project with assistance under the Section 8
moderate rehabilitation program may request
renewal under § 402.4.

14a
Id. § 402.5(a) (emphasis added). According to the court
and plaintiffs, this regulation requires that HUD be
the party that renews the contract, and accordingly requires that there be privity between the government
and landlord-plaintiffs in this case. We disagree. The
regulations simply indicate that HUD can be a party to
the renewal contracts. Permission is not the same as a
mandate. And, the regulation, taken in context with its
citation to 24 C.F.R. § 402.4, relates more clearly to
specifying the rental rates that apply to potential contract renewals. Compare 24 C.F.R. § 402.5(a) (“HUD
will offer to renew ... at rent levels determined under
this section”), with 24 C.F.R. § 402.4 (“HUD may renew
... at initial rents that do not exceed comparable market rents.”).
Fourth, landlord-plaintiffs argue that the terms of
the contract create privity between the government
and the plaintiffs. They argue that Section 11 of the
contract states that if the PHA breaches the contract,
HUD agrees to correct any default by the PHA and to
continue the housing assistance payments. They also
cite Section 4(a)(2) of the Contract as stating that HUD
should remain a Party to the contract. Finally, they
submit that Section 2(c) of the contract required HUD
to provide the funds necessary under the contract. We
disagree. Section 11 gives HUD tremendous discretion,
but it does not obligate HUD. Section 11 is similar to
the paragraph that our court addressed in National
Leased Housing Ass’n, which we discussed above.
There, the provision required HUD to assume certain
rights and obligations in accordance with a provision
that “HUD may, if it determines the [PHA] is in default, assume the [PHA’s] rights and obligations.” Nat’l
Leased Hous. Ass’n, 105 F.3d at 1436 (alterations in
original). Because the condition was predicated on
HUD’s discretion to assume the PHA’s rights and obli-

15a
gations, the court reasoned that HUD’s liability, if any,
was completely within its discretion. Because this was
“not the type of direct, unavoidable contractual liability
necessary to trigger a waiver of sovereign immunity,”
the court concluded that there was no privity. Id. Here,
too, the liability of the government, if any, is contingent upon the government’s acquiescence through Section 11, which permits HUD to correct any default by
the PHA, but only at HUD’s discretion. The contractual
liability does not rise to the level necessary to trigger a
waiver of sovereign immunity. The same logic applies
to Sections 4(a)(2) and 2(c) of the contract. Thus, we
conclude that the terms of the contract do not create
privity between the government and the landlordplaintiffs.
CONCLUSION

For the reasons above, we reverse the trial court’s
determination that it had subject matter jurisdiction
and vacate the trial court’s decision regarding liability
and damages. We have considered the parties’ remaining arguments and find them unpersuasive. Accordingly, we remand for entry of judgment consistent with
this opinion.
REVERSED-IN-PART, VACATED-IN-PART, AND REMANDED.
COSTS

No costs.

16a
APPENDIX B

United States Court of Federal Claims
PARK PROPERTIES ASSOCIATES, L.P. et al.,
Plaintiffs,
v.
The UNITED STATES, Defendant.
No. 15-554 C
(Filed: September 26, 2016)
OPINION AND ORDER

SMITH, Senior Judge
This is a follow-on case to Park Properties Associates, L.P. v. United States, Fed. Cl. No. 04–1757C (Park
Properties I), in which three property owners, including
the two plaintiffs in this case, Park Properties Associates, L.P., (“Park Properties”) and Valentine Properties
Associates, L.P., (“Valentine Properties”) brought
breach of contract claims alleging that Congress’ 1994
amendments to the Section housing program breached
their Housing Assistance Payments (“HAP”) contracts
with the United States Department of Housing and
Urban Development (“HUD”). The Court held that
Congress’ 1994 amendments breached the plaintiffs’
HAP contracts, but plaintiffs were not entitled to damages based on their renewal HAP contracts. In this
case, plaintiffs contend that their renewal contracts
should be reformed to reflect the higher rent levels
consistent with the damages calculations used in Park
Properties I. This action is before the Court on plaintiffs’ motion for summary judgment and defendant’s
motion to dismiss.

17a
I. Findings of Fact

Plaintiffs, Park Properties Associates, L.P., and
Valentine Property Associates (together “the Properties”), are the owners of two multifamily properties located in Yonkers, New York, and participants of the
Section 8 housing program. Amended Complaint, ECF
No. 11 (hereinafter “Am. Compl.”), at 3. Park Properties entered into a Housing Assistance Payment Contract “HAP Contract” with the HUD for an 83-unit
multifamily property known as La Martine Terrace
(“La Martine”) which was designated with HUD project
number NY 36-0010-003. Am. Compl. at 8. Valentine
entered into a HAP contract with HUD for a 110-unit
multifamily property known as Lane Hill Citizens Residence (“Lane Hill”) which was designated with HUD
project number NY 36-0003-011. Id. Pursuant to the
La Martine and Lane Hill contracts (collectively “the
HAP contracts”), HUD was to provide housing assistance payments to plaintiffs for units in both properties under lease by lower-income families. Id. According to 42 U.S.C. § 1437(c)(1), the housing assistance
payments provided by the government are designed to
reimburse plaintiffs for the difference between the rent
called for under the HAP contracts and the amount
paid by each family. Id.
The original contract for the La Martine project
expired on May 31, 2009. Id. The original contract for
Lane Hill expired on January 1, 2010. Id. Upon the expiration of the contracts, plaintiffs were not paid for
five (5) months as they negotiated with HUD. Plaintiffs
eventually requested a renewal as an exception project
and entered into a series of short-term renewal contracts of varying lengths, each less than one year. Am.
Compl. at 6. In January of 2011, both plaintiffs entered
into long-term 20-year HAP contracts. Am. Compl. at
12-13.

18a
A. The 1994 and 1997 Amendments

The payments to the owners under the original
HAP contracts were subject to “automatic annual adjustments,” which raised the per-unit rent by a factor
published annually by HUD. Am. Compl. at 4. In 1994,
Congress amended Section 8 of the U.S. Housing
Act, 42 U.S.C. § 1437f, by requiring that, when rents
exceed fair market rentals, a property owner had to
demonstrate that the adjusted rent would not materially exceed comparable rents in order to be eligible for
an annual adjustment. Defendant’s Motion to Dismiss,
ECF 20 (hereinafter “MTD.”), at 3. Congress also
amended Section 1437f(c)(2)(A) to require a one percent reduction of the annual adjustment factors for any
units occupied by the same tenant during the past
year. Id.
The 1994 amendments caused the government to
provide plaintiffs with lower rent adjustments compared to what plaintiffs were entitled to under the
HAP contracts. Am. Compl. at 9-10. After the 1994
amendments, HUD ceased making automatic annual
adjustments of the respective contract rents on the
HAP contracts’ anniversary dates as required by the
terms of the HAP contracts. Id. This resulted in substantially lower housing assistance payments being
made by HUD to plaintiffs each month. Id.
In 1997, Congress further amended Section 8
through passage of the Multifamily Assisted Housing
Reform and Affordability Act of 1997 (“MAHRAA”).
Am. Compl. at 5. The purpose of MAHRAA was to preserve low-income rental housing affordability and
availability. Id. MAHRAA provided for the restructuring of mortgages going into default, and it further reduced rents. Id. MAHRAA also contained provisions
designed to compel the owners of Section 8 housing

19a
projects to renew their contracts on terms and conditions dictated by the statute and HUD, who drafted the
contracts. Id. Under MAHRAA, HUD was required to
relocate tenants only where HUD did not want to renew the contract. See MAHRAA § 516(d)(2).1 Rent subsidy payments would terminate under MAHRAA on
the contract expiration unless the contract was renewed, even if tenants were still in the building. Am.
Compl. at 6.
The MAHRAA provides for two types of rents for
renewed contracts: (1) rents under MAHRAA § 524(a)(4) and (2) “exception rents,” under MAHRAA § 524(b)(1). Id. MAHRAA requires contracts to provide for
exception rents at the request of the owner in either of
two circumstances: (1) where the project is not an eligible multifamily housing project under MAHRAA §
512(2), or (2) where the project is exempt from mortgage restructuring and rental assistance sufficiency
plans under MAHRAA § 524(h). Id. A project is not an
eligible multifamily housing project under MAHRAA §
512(2) if the project was not financed by a mortgage insured or held by the Secretary of HUD under the National Housing Act. See MAHRAA § 512(2)(C). The
HUD Secretary may treat a project as an eligible multifamily housing project for purposes of MAHRAA under certain circumstances even if the project otherwise
does not meet all of the requirements of § 512(2). Am.
Compl. at 7. However, the project owner must (1) consent to such treatment, and (2) the project must have
qualified as an eligible multifamily housing project at
some time prior to renewal. See MAHRAA § 512. PlainThe HAP contracts and HUD regulations require the owners to
give a year's notice to HUD and all tenants if they do not intend
on renewing their contract to allow HUD sufficient time to relocate the tenants. Am. Compl. at 6.
1

20a
tiffs’ buildings are not financed by any government
mortgages or guarantees. Plaintiffs have neither consented to being treated as an eligible multifamily housing project nor do they qualify as an eligible multifamily housing project. Am. Compl. at 7.
MAHRAA § 524(b), the provision on exception
rents, provides for the lesser of adjusted existing rents
or budget-based rents. Id. During the relevant time period, budget-based rents for plaintiffs’ projects were
higher than adjusted existing rents. Id. The rents to be
applied to the renewal contracts were the existing
rents as of the last month of the expiring contract, as
adjusted by an operating cost adjustment factor
(“OCAF”) established by the HUD Secretary. See
MAHRAA § 524(b)(1). HUD has published an OCAF
applicable to both of plaintiffs’ properties. Am. Compl.
at 8.
B. The 2006 Decision

In 2004, three property owners, including the two
plaintiffs in this case, brought breach of contract
claims, alleging that HUD breached their HAP contracts by failing to make housing assistance payments
in amounts that corresponded to the automatic annual
adjustment and seeking damages for the difference between the amounts due under the contract and the
substantially lower amounts paid by HUD to plaintiffs. See Park Properties Associates, L.P. v. United
States, 74 Fed. Cl. 264, 265–66 (2006) (Allegra, J.)
(Park Properties I).
In 2006, this Court held that Congress’ 1994
Amendments repudiated and breached the plaintiffs’
HAP contracts. Park Properties I, 74 Fed. Cl. at 274. In
a subsequent damages opinion, the Court held, among
other things, that the plaintiffs were not entitled to recover damages based on their renewal HAP contracts

21a
on the grounds that plaintiffs had waived the argument and because such damages were not foreseeable
at the time of the original HAP contracts. Park Properties Associates, L.P. v. United States, Fed. Cl. No. 04–
1757C (September 19, 2015) (unpublished) Park Properties Associates L.P. v. United States, No. 04–1757C,
(Fed. Cl. Sep. 19th, 2015). Following the Court’s ruling,
the parties submitted a joint stipulation quantifying
damages pursuant to the Court’s opinion. Stipulation, Park Properties I, No. 04–1757C, ECF No. 162,
(Fed. Cl. Oc. 31, 2014). On November 4, 2014, the clerk
entered judgment in favor of each of the three plaintiffs
in the amounts set forth in the joint stipulation. Park
Properties I, Nov. 4, 2014, ECF No. 164. This complaint
followed, requesting this Court to reform the renewal
contracts to reflect the higher rent levels consistent
with the damages calculations used in Park Properties
I, and damages for the difference between the rental
rate levels in the reformed renewal contracts and those
in the unreformed renewal contracts. Am. Compl. at 1.
II. Discussion
A. Standard of Review

This Court’s jurisdictional grant is found primarily
in the Tucker Act, which provides the Court of Federal
Claims the power “to render any judgment upon any
claim against the United States founded either upon
the Constitution, or any Act of Congress or any regulation of an executive department, or upon any express
or implied contract with the United States ... in cases
not sounding in tort.” 28 U.S.C. § 1491(a)(1). Although
the Tucker Act explicitly waives the sovereign immunity of the United States against such claims, it “does not
create any substantive right enforceable against the
United States for money damages.” United States v.
Testan, 424 U.S. 392, 398 (1976). Rather, in order to

22a
fall within the scope of the Tucker Act, “a plaintiff
must identify a separate source of substantive law that
creates the right to money damages.” Fisher v. United
States, 402 F.3d 1167, 1172 (Fed. Cir. 2005) (en banc in
relevant part).
When the Court’s subject matter jurisdiction to
hear a case is challenged, the plaintiff has the burden
of establishing by a preponderance of the evidence that
this Court has jurisdiction over its claims. See Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377
(1994). The Court “must accept as true all undisputed
facts asserted in the plaintiff’s complaint and draw all
reasonable inferences in favor of the plaintiff.” Trusted
Integration, Inc. v. United States, 659 F.3d 1159, 1163
(Fed. Cir. 2011) (citing Henke v. United States, 60 F.3d
795, 797 (Fed. Cir. 1995)). Motions to dismiss under
Rule 12(b)(6) of the Rules of the Court of Federal
Claims (“RCFC”) test the legal sufficiency of a complaint in light of RCFC Rule 8(a), which requires “a
plausible ‘short and plain’ statement of the plaintiff’s
claim, showing that the plaintiff is entitled to relief.” K–Tech Telecommunications, Inc. v. Time Warner
Cable, Inc., 714 F.3d 1277, 1282 (Fed. Cir. 2013) (quoting Skinner v. Switzer, 562 U.S. 521 (2011)). Although
a complaint “does not need detailed factual allegations,” the plaintiff must plead enough factual allegations “to raise a right to relief above the speculative
level.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). When considering a motion to dismiss for failure to state a claim, the Court must accept plaintiff’s
factual allegations as true and draw all reasonable inferences in favor of the plaintiff. Celotex Corp. v.
Catrett, 477 U.S. 317, 327 (1986). Nonetheless, the
Court should dismiss a complaint “when the facts asserted by [the] claimant do not entitle him to a legal

23a
remedy.” Lindsay v. United States, 295 F.3d 1252, 1257
(Fed. Cir. 2002).
Summary judgment is appropriate when the evidence indicates that there is “no genuine dispute as to
any material fact and that the movant is entitled to
judgment as a matter of law.” RCFC 56(c); Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247–48 (1986). A
“genuine” dispute is one that “may reasonably be resolved in favor of either party,” and a fact is “material”
if it might significantly alter the outcome of the case
under the governing law. Anderson, 477 U.S. at 248,
250. In determining the propriety of summary judgment, the Court will not make credibility determinations, and will draw all inferences in the light most favorable to the nonmoving party. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587–88
(1986).
B. Privity

In its motion to dismiss, defendant argues that
plaintiffs lack privity with HUD because HUD is not a
party to the renewal contracts. Highlighting that the
renewal contracts are technically between the owners
and the New York State Housing Trust Fund Corporation (“NYSHTFC”), HUD argues that no privity of contract exists here, and thus, the Court has no jurisdiction to even entertain this action under the Tucker Act.
MTD at 9. This Court does not agree.
The terms of the contract create privity between
the owners and HUD. Section 4(a)(2) of the contract
provides that HUD is party to provisions of the renewal contract. One of these provisions is in Paragraph 11,
in which HUD agrees to correct any default if the Public Housing Agency (“PHA”) breaches the contract, as
well as agrees to continue assistance payments to the
owners. Complaint, Exhibit A, ECF 1, (hereinafter

24a
“Compl. Ex. A”) at 11. Furthermore, although the
NYSHTFC is listed as the Contract Administrator,
HUD is a signatory to this contract. Id. at 13.
HUD is directed by statute to offer renewal contracts. MAHRAA § 402.5(a). An exception exists under 42 U.S.C. § 1437f, which provides that, where a
PHA initiates, contracts, and administers a contract
with a local property owner, and where HUD’s only
contract is to pay the PHA, no privity exists between
HUD and the property owner. 42 U.S.C. § 1437f. However, the controlling provision of this exception indicates that the PHA must initiate, contract, and administer the contract in order to avoid that privity. Id. The
NYSHTFC did not initiate the renewal contracts. Rather, according to the contract provisions themselves,
HUD, as the Contract Administrator, “may assign the
Renewal Contract to a [PHA] for the purpose of PHA
administration of the Renewal Contract, as Contract
Administrator, in accordance with the Renewal Contract (during the term of the annual contributions contract (“ACC”) between HUD and the PHA).” Compl. Ex.
A at 9. HUD initiated the renewal contracts and then
assigned them to the NYSHTFC. The NYSHTFC did
not itself initiate, negotiate, or administer those contracts. As the NYSHTFC did not initiate, negotiate, or
administer the renewal contracts, the NYSHTFC has
no authority to perform under those renewal contracts.
Therefore, despite HUD’s attempt transfer the renewal
contracts to the NYSHTFC, HUD has not escaped privity with the property owners.
C. Breach of Contract

In its motion to dismiss, defendant argues that the
plaintiffs have not alleged a breach of the renewal contracts because they have not identified a specific provision that has been breached. MTD at 18. In their mo-

25a
tion for summary judgement, plaintiffs argue that
HUD intentionally breached the renewal contracts by
applying the wrong preexisting rents in determining
what the renewal rents would be. Plaintiff’s Motion for
Summary Judgment, ECF 30 (hereinafter “P’s MSJ”)
at 7. In 2006, this Court held that Congress’ 1994
Amendments repudiated and breached the plaintiffs’
original HAP contracts. Park Properties I, 74 Fed. Cl.
at 274. As a result of that holding, the plaintiffs’ rents
should have been upwardly adjusted, but HUD failed
to effect that adjustment. A final judgment on this issue was released in 2014, following a joint stipulation
in which the parties agreed as to what the contractual
rent amount should have been if the breach had not occurred. HUD did not appeal the 2014 order, and plaintiffs argue that the renewal contracts should have been
recalculated to reflect the correct preexisting rents. P’s
MSJ at 9. This Court agrees with plaintiffs’ assertion.
“It is a principle of the widest application that equity will not permit one to rely on his own wrongful
act.” Deitrick v. Greaney, 309 U.S. 190, 196 (1940). In
the case at bar, HUD is relying on the fact that it did
not effectuate the judicially required rent adjustment
prior to entering into the renewal contracts to argue
that those adjustments are not required for the current
contracts at issue. This Court does not agree with that
assessment. The Court of Claims, has previously held
that “[t]his court may exercise equity jurisdiction to the
extent of reforming contracts and base its decree upon
the contract as reformed.” Pocono Pines Assembly Hotels Co. v. United States, 73 Ct. Cl. 447, 482 (1932). Additionally, “[t]he courts have in the past allowed reformation of a contract based on mutual mistake of
fact.” Edwards v. U.S., 19 Cl. Ct. 663, 674 (1990) (see
Bowen–McLaughlin–York Co. v. United States, 813
F.2d 1221, 1222 (Fed.Cir.1987));

26a
Ins. Co. v. United States, 812 F.2d 700 (Fed. Cir. 1987);
Southwest Welding & Mfg. Co. v. United States, 179 Ct.
Cl. 39, 52–53, 373 F.2d 982, 989–91 (1967); National
Presto Indus., Inc. v. United States, 167 Ct. Cl. 749, 338
F.2d 99 (1964), cert. denied, 380 U.S. 962 (1965)).
A mutual mistake is defined by the Restatement
(Second) of Contracts, section 151 as “a belief that is
not in accord with the facts.” Hartle v. U.S., 22 Cl. Ct.
843, 846 (1991) (citing Summit Timber Co. v. United
States, 230 Ct. Cl. 434, 445, 677 F.2d 852 (1982)). “[A]
mistake, in order to justify rescission, must relate to
the intrinsic nature of the bargain.... [A] mistake vitally affecting a fact or facts on the basis of which the parties contracted renders their contract voidable by an
injured party.” Hartle, 22 Cl. Ct. at 846 (citing Higgs v.
United States, 212 Ct. Cl. 146, 150, 546 F.2d 373
(1976) (citing 13 Williston on Contracts § 1544 (3d ed.
1970))). As such, it follows that mutual mistake is also
grounds for reformation.
The restatement expounds upon this in stating the
following:
Where a mistake of both parties at the time a
contract was made as to a basic assumption on
which the contract was made has a material effect on the agreed exchange of performances,
the contract is voidable by the adversely affected party unless he bears the risk of the mistake under the rule stated in § 154.
Restatement (Second) of Contracts, § 152 (1981); see also National Presto, 167 Ct. Cl. at 761, 338 F.2d 99.
The renewal HAP contracts were entered into in
2011, before the 2014 final judgment on the original
contract rents. Am. Compl. at 12-13. The 2014 decision
set out the agreed upon preexisting rents. At the time
of that decision, the renewal contracts should have

27a
been adjusted to reflect those new rents. Had the adjusted rents been in place at the onset of the renewal
contracts, the rents included therein would have
been higher and in accordance with the 2014 decision.
As a result of the mistakenly applied rents, the defendant has breached the renewal contracts in failing
to pay the rental amount that should have been paid
but for the mistake made in contracting the renewals.
Equitable principles require a finding that the
plaintiff should be put in the same position it would
have been in if the government had not breached its
contract. There is no disagreement among the parties
that, but for the breach, plaintiff would be receiving
the rental amount it now seeks. To deny them those
rents would be to allow the government to profit significantly from its breach at the expense of the plaintiffs
and at the expense of its reputation for fair dealing. As
such, we must agree with plaintiffs and order the
reformation they seek. Plaintiffs are entitled to a recalculation of the rents for the period beginning with the
initiation of the renewal contracts.
III. Conclusion

For the reasons set forth above, defendant’s MOTION to dismiss is DENIED. Additionally, plaintiffs’
MOTION for Summary Judgment is GRANTED. On
or before Monday, November 28, 2016, the parties shall
submit to this Court a stipulation of the amount owed
by the government to the plaintiffs.
IT IS SO ORDERED.

28a
APPENDIX C

United States Court of Federal Claims.
No. 15–554 C
(Filed: May 2, 2017)
PARK PROPERTIES ASSOCIATES, L.P. et al.
Plaintiffs,
v.
The UNITED STATES,
Defendant.
OPINION, ORDER, AND STIPULATION
QUANTIFYING DAMAGES AND FOR ENTRY
OF JUDGMENT
SMITH, Senior Judge
Pursuant to the Opinion issued by this Court on
September 26, 2016, in which the Court requested a
stipulation of damages by both parties consistent with
the findings and the damage calculations used in Park
Properties Associates, L.P. v. United States, Fed. Cl.
No. 04–1757C (“Park Properties I”), this Court awards
plaintiffs $7,867,018.00 in total damages. Of those
damages, Park Properties Associates, L.P. (“Park
Properties”) is entitled to $3,740,067.00, and Valentine
Property Associates (“Valentine”) is entitled to
$4,126,951.00.

29a
I. Findings of Fact 1
Plaintiffs, Park Properties and Valentine (together
“the Properties”), are the owners of two multifamily
properties located in Yonkers, New York, and participants in the Section 8 housing program. Amended
Complaint (hereinafter “Am. Compl.”) at 3. Park Properties entered into a Housing Assistance Payment Contract (“HAP Contract”) with the Department of Housing and Urban Development (“HUD”) for an 83–unit
multifamily property known as La Martine Terrace
(“La Martine”) which was designated with HUD project
number NY 36–0010–003. Am. Compl. at 8. Valentine
entered into a HAP contract with HUD for a 110–unit
multifamily property known as Lane Hill Citizens Residence (“Lane Hill”) which was designated with HUD
project number NY 36–0003–011. Id. Pursuant to the
La Martine and Lane Hill contracts (collectively “the
HAP contracts”), HUD was to provide housing assistance payments to plaintiffs for units in both properties leased by lower-income families. Id. According to
42 U.S.C. § 1437(c)(1), the housing assistance payments provided by the government are designed to reimburse plaintiffs for the difference between the rent
called for under the HAP contracts and the amount
paid by each family. Id.
A. The 1994 and 1997 Amendments
The payments to the owners under the original
HAP contracts were subject to “automatic annual adjustments,” which raised the per-unit rent by a factor
published annually by HUD. Am. Compl. at 4. In 1994,
Congress amended Section 8 of the U.S. Housing Act,
42 U.S.C. § 1437f, by requiring that, when rents exceed
A full recitation of the facts may be found at Park Properties Associates, L. P. v. United States, No. 15–554C (2016).

1

30a
fair market rentals, a property owner had to demonstrate that the adjusted rent would not materially exceed comparable rents in order to be eligible for an annual adjustment. Defendant’s Motion to Dismiss (hereinafter “MTD”) at 3. The 1994 amendments caused the
government to provide plaintiffs with lower rent adjustments compared to what plaintiffs were entitled to
under the HAP contracts. Am. Compl. at 9–10. After
the 1994 amendments, HUD ceased making automatic
annual adjustments of the respective contract rents on
the HAP contracts’ anniversary dates as required by
the terms of the HAP contracts. Id. This resulted in
substantially lower housing assistance payments being
made by HUD to plaintiffs each month. Id.
In 1997, Congress further amended Section 8
through passage of the Multifamily Assisted Housing
Reform and Affordability Act of 1997 (“MAHRAA”).
Am. Compl. at 5. MAHRAA provides for two types of
rents for renewed contracts: (1) rents under MAHRAA
§ 524(a)(4) and (2) “exception rents,” under MAHRAA §
524(b)(1). Am. Compl. at 6. MAHRAA requires contracts to provide for exception rents at the request of
the owner in either of two circumstances: (1) where the
project is not an eligible multifamily housing project
under MAHRAA § 512(2), or (2) where the project is
exempt from mortgage restructuring and rental assistance sufficiency plans under MAHRAA § 524(h). Id.
Plaintiffs’ buildings are not financed by any government mortgages or guarantees. Plaintiffs have neither
consented to being treated as an eligible multifamily
housing project nor do they qualify as an eligible multifamily housing project. Am. Compl. at 7.
MAHRAA § 524(b), the provision on exception
rents, provides for the lesser of adjusted existing rents
or budget-based rents. Id. During the relevant time period, budget-based rents for plaintiffs’ projects were

31a
higher than adjusted existing rents. Id. The rents to be
applied to the renewal contracts were the existing
rents as of the last month of the expiring contract, as
adjusted by an operating cost adjustment factor
(“OCAF”) established by the HUD Secretary. See
MAHRAA § 524(b)(1). HUD has published an OCAF
applicable to both plaintiffs’ properties. Am. Compl. at
8.
B. The 2006 Decision
In 2004, three property owners, including the two
plaintiffs in this case, brought breach of contract
claims alleging that HUD breached their HAP contracts by failing to make housing assistance payments
in amounts that corresponded to the automatic annual
adjustment and seeking damages for the difference between the amounts due under the contract and the
substantially lower amounts paid by HUD to plaintiffs.
See Park Properties Associates, L.P. v. United States,
74 Fed. Cl. 264, 265–66 (2006) (Allegra, J.) (Park Properties I ). In 2006, this Court held that Congress’ 1994
Amendments repudiated and breached the plaintiffs’
HAP contracts. Park Properties I, 74 Fed. Cl. at 274.
Following the Court’s ruling, the parties submitted a
joint stipulation quantifying damages pursuant to the
Court’s opinion. Park Properties I, October 31, 2014
(ECF No. 162). On November 4, 2014, the clerk entered
judgment in favor of each of the three plaintiffs in the
amounts set forth in the joint stipulation. Park Properties I, November 4, 2014 (ECF No. 164).
C. This Court’s Decision
On May 29, 2015, plaintiffs filed a complaint, requesting this Court reform the renewal contracts to reflect the higher rent levels consistent with the damages
calculations used in Park Properties I, and for damages
amounting to the difference between the rental rate

32a
levels in the reformed renewal contracts and those in
the unreformed renewal contracts. Am. Compl. at 1.
This Court granted plaintiffs’ Motion and ordered the
parties to submit a stipulation of the costs with supporting documentation and calculations for damages.
On December 16, 2016, plaintiffs submitted a memorandum presenting their damage calculations. On
January 16, 2017, defendant submitted a response to
plaintiffs’ calculations with its version of appropriate
damage calculations. On January 27, 2017, plaintiffs
submitted their reply in support of their memorandum
on damages. On January 31, 2017 this Court held Oral
Argument regarding the same. On February 8, 2017
plaintiffs filed a memorandum challenging defendant’s
statements during oral arguments. On February 14,
2017 the defendant filed a Motion to Strike that memorandum, and on February 28, 2017, defendant filed a
Motion for supplemental authority. On March 3, 2017,
plaintiffs responded to defendant’s motions. This case
is now fully briefed and ripe for decision.
II. Discussion
A. Plaintiffs’ Damages
Plaintiffs began their damages calculation by using
pre-existing rents from the 2014 stipulation in Park
Properties I for each apartment type. Plaintiffs’ Memo
at 1 (“P’s Memo”). Those rents were then multiplied by
the applicable Operating Cost Adjustment Factor
(“OCAF’s”) published annually in the Federal Register.
Id. In the succeeding years, the starting point rent for
each apartment type was the prior year’s rent multiplied by the applicable OCAF for each subsequent year.
Id.
The underpayment was determined by subtracting
the actual rent paid in any given year from that year’s
newly determined rent, as explained above, for each

33a
period per apartment by apartment type. Id. This calculation provided the monthly contract underpayment
amount. Id. This number was then multiplied by the
number of apartments of each type to establish the
monthly underpayment by apartment type. P’s Memo
at 2.
The contract periods for Valentine were all for one
year, so each monthly underpayment was multiplied by
12 to determine the annual underpayment for each
apartment type. Id. Those numbers were then added
together for the total damage calculation for Valentine,
which plaintiffs calculated as $4,148,101.06. Id. The
contract periods varied for Park Properties, so the
monthly underpayment was multiplied by the relevant
months. Id. The damages for each apartment type were
added together to form the total damage calculation for
Park Properties, which plaintiffs calculated as
$3,769,625.93. Id.
Next, plaintiffs calculated vacancy damages in accordance with the 2014 stipulation. Vacancy damages
were added to the above damage number to establish
the plaintiffs’ total damage calculation for each property. P’s Memo at 2. First, plaintiffs reviewed vouchers
submitted to HUD to determine the days vacant for
each apartment type by contract period. Id. The total
number of days in which there was a vacancy was then
divided by 30 to establish a “monthly vacancy” percentage. That percentage was then multiplied by the
new “OCAF Adjusted Contract Rent” to determine the
dollar vacancy total by apartment type for each contract period. Id. The vacancy totals for each unit were
added together and then multiplied by 80 percent, as
government regulations provide for an 80 percent
payment for vacant apartments. Id. This number represented the gross total vacancies. Plaintiffs note that
no vacancy payments were made in the past. Id. The

34a
total vacancy damages for Valentine were calculated as
$46,495.15, and the vacancy damages for Park Properties were calculated to be $53,745.17. Id. Thus, the
grand total for all damages under the plaintiffs’ calculations is $8,017,967.31.
B. Defendant’s Damages
The defendant’s starting point is a “but-for” rent
drawn from the comparability studies that plaintiffs
provided HUD in 2010. Those studies were provided in
2010 in an effort to justify rents at that time, but they
are unrelated to this Court’s proceedings. Defendant’s
Response Memorandum at 4 (“D’s Resp.”). Defendant
applies the OCAF as originally included in letters to
plaintiffs as part of the contracting process. Id. “The
difference between the [“but-for”] rent and the actual
contract rent represents the damages per unit, which
was then multiplied by the number of months for that
contract period.” Id.
The defendant deducted vacancy damages from
the gross damages for each apartment type. Id. Defendant used the numbers that plaintiffs submitted in
their memo on damages calculations, calculated the
daily value of the underpayment, and then multiplied
that amount by the number of days vacant. Id. This
“vacancy deduction” was subtracted from defendant’s
gross damages calculation, which defendant determined was the net damages for each apartment type
per contract period. Id.
Defendant calculated the total damages for Valentine as $40,936.00. D’s Resp. Exhibit A at 7. The defendant calculated the total damages for Park Properties as $1,287,960.00. Id. The total damage award proffered by defendant was $1,328,896.00. Id.
C. This Court’s Calculation

35a
This Court was looking for a straightforward calculation of damages similar to those stipulated in Park
Properties I. This Court looked to the calculations provided by both parties to determine the damage award.
The biggest discrepancy between the two sets of calculations is the baseline rent to which the OCAF was applied and the rent that should have been paid but for
the breach. The plaintiffs used the rent for each
apartment type and property as set forth in the 2014
Stipulation from Park Properties I. They then multiplied this number by the OCAF. In subsequent years,
the “but-for” rent was calculated by using the previous
years’ rent multiplied by the subsequent year’s OCAF.
This calculation uses similar calculations to those used
in the 2014 Stipulation. Defendant’s vacancy deduction, which used plaintiffs’ numbers, was then subtracted from the gross total damages. The Court has
determined the damages to be as follows:
Park Properties Associates, L.P.

$3,740,067.00

Valentine Properties Associates, L.P.

$4,126,951.00

Total damage award

$7,867,018.00

D. Plaintiffs’ Memorandum and Defendant’s
Motion to Strike
On February 8, 2017, plaintiffs filed a memorandum proffering their status as falling under MAHRAA
§ 524(b), which deals with exception contracts, as opposed to the provisions of MAHRAA § 524(a). On February 14, 2017, defendant filed a Motion to Strike that
memorandum as untimely and because plaintiffs were

36a
not given leave to file said memorandum by this Court.
While this Court agrees that plaintiffs’ memorandum
was untimely filed, it should be noted that neither the
memorandum’s filing, nor the action of striking that
memorandum from the record is outcome determinative. It is already well established by the Opinion issued on September 26, 2016, that the HAP contracts in
this case are governed by MAHRAA § 524(b), the provision on exception rents. The memorandum filed on
February 8, 2017 was superfluous. However, as defendant is correct in its assertion that said memo was
untimely, this Court grants defendant’s Motion to
Strike the same.
E. Defendant’s Notice of Supplemental
Authority
On February 28, 2017, defendant filed a Motion for
leave to file notice of supplemental authority, asking
this Court to consider the 7th Circuit’s ruling in Evergreen Square of Cudahy v. Wisconsin Housing & Economic Development Authority, No. 16–1475, 2017 WL
657438 (7th Cir. Feb. 17, 2017). This Court grants that
Motion. However, on March 3, 2017, plaintiffs filed a
response to that motion, and this Court is persuaded
by plaintiffs’ argument that the facts in Evergreen are
distinguishable from the instant case. As a result,
though this Court grants the Motion to file notice of
supplemental authority, such a filing will not be outcome determinative, and Opinion dated September 26,
2016 remains unchanged.
III. Conclusion
For the reasons set forth above, defendant’s MOTION to strike and defendant’s MOTION for leave to
file supplemental authority are GRANTED. Additionally, plaintiffs are awarded $7,867,018.00 in total damages.

37a
IT IS SO ORDERED.

38a
APPENDIX D
United States Court of Appeals
for the Federal Circuit

Park Properties Associates, L.P.,
Valentine Properties Associates, L.P.,
Plaintiffs-Cross-Appellants,
v.
United States,
Defendant-Appellant.
Nos. 2017-2279, 2017-2344
Appeals from the United States Court of Federal
Claims in No. 1:15-cv-00554-LAS,
Senior Judge Loren A. Smith.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC

Before Prost, Chief Judge, Newman, Mayer1, Lourie,
Schall 2, Dyk, Moore, O’Malley, Reyna, Wallach,
Taranto, Chen, and Stoll, Circuit Judges*.
Per Curiam.
ORDER

Cross-Appellants Park Properties Associates, L.P.
and Valentine Properties Associates, L.P. filed a combined petition for panel rehearing and rehearing en
banc. A response was invited by the court and filed by
Appellant United States. The petition was referred to
Circuit Judges Mayer and Schall participated only in the decision on the petition for panel rehearing.

2

* Circuit Judge Hughes did not participate.

39a
the panel that heard the appeals, and thereafter the
petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
It is ordered that:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 6, 2019.

May 30, 2019

For the Court,
[signature]

